WAIVER

Supreme Court of the United States

No. 20-8303
Dong Sheng Huang v. Jalea Joechele Hill, et al.
(Petitioner) (Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
c Iam filing this waiver on behalf of all respondents.

& Ionly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Michael Keleman, Richard Dricks, Randall Aragon and City of LaMarque

 

 

 

Please check the appropriate box:

4 lama member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

O Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme eo Office, 1 First Street, NE, Washington, D.C. 20548).

 

Signature
Date: July 8, 2021

 

William S. Helfand

Mr. OMs. OMrs. O Miss
Lewis Brisbois Bisgaard & Smith, LLP

(Type or print) Name

 

 

 

 

 

Firm
addrecs) 24 Greenway Plaza, Suite 1400
. Houston, Texas _ 77046
City & State Zip.
Ee coon ones Email _bill-helfand@lewisbrisbois.com

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

ce: Dong Sheng Huang
